                   DEPARTMENT OF HEALTH AND HUMAN SERVICES


              OFFICE OF INSPECTOR GENERAL
                                    WASHINGTON, DC 20201


                                      APR 11 2014
TO:           Marilyn Tavenner
              Administrator
              Centers for Medicare & Medicaid Services

               Leon Rodriguez 

               Director 

               Office for Civil Rights 

                         /S/
FROM:          Brian P. Ritchie
               Acting Deputy Inspector General
                for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Offshore Outsourcing ofAdministrative Functions
           by State Medicaid Agencies, OEI-09-12-00530


This memorandum report provides information about State Medicaid agencies'
requirements for outsourcing administrative functions offshore. Outsourcing occurs
when Medicaid agencies enter into agreements with contractors to perform administrative
functions. Outsourcing can occur inside the United States (domestic outsourcing) or
outside (offshore outsourcing). In 2011, an Office oflnspector General (OIG) review
found that one Medicaid agency was unaware that a contractor had sent electronic copies
of Medicaid claims offshore for processing. This Medicaid agency inquired whether OIG
had information regarding how States regulate offshore outsourcing. In response, we
initiated the current study, obtaining information from all 56 Medicaid agencies regarding
their requirements and practices for outsourcing administrative functions offshore. This
memorandum report summarizes the information we collected from those States.

SUMMARY

Only fifteen of fifty-six Medicaid agencies have some form of State-specific requirement
that addresses the outsourcing of administrative functions offshore. The remaining
41 Medicaid agencies reported no offshore outsourcing requirements and do not
outsource administrative functions offshore. Among the 15 Medicaid agencies with
requirements, 4 Medicaid agencies prohibit the outsourcing of administrative functions
offshore and 11 Medicaid agencies allow it. The 11 Medicaid agencies that allow
offshore outsourcing of administrative functions each maintained Business Associate
Agreements (BAAs) with contractors, which is a requirement under the Health Insurance
Portability and Accountability Act (HIPAA). Among other purposes, BAAs are intended
to safeguard protected health information (PHI). These 11 Medicaid agencies do not
have additional State requirements that specifically address safeguarding PHI.
Page 2 – Marilyn Tavenner and Leon Rodriguez



Seven of the eleven Medicaid agencies that allow offshore outsourcing of administrative
functions reported that they outsource offshore through subcontractors, but none reported
sending PHI offshore. If Medicaid agencies engage in offshore outsourcing of
administrative functions that involve PHI, it could present potential vulnerabilities. For
example, Medicaid agencies or domestic contractors that send PHI offshore may have
limited means of enforcing provisions of BAAs that are intended to safeguard PHI.
Although some countries may have privacy protections greater than those in the United
States, other countries may have limited or no privacy protections.

BACKGROUND

The Medicaid Program
Medicaid is a joint Federal and State program that provides health care coverage to
low-income and medically needy populations, such as children, senior citizens, and
people with disabilities. States administer the Medicaid program subject to Federal
guidelines and policies established by the Centers for Medicare & Medicaid Services
(CMS).1 For example, States establish—within Federal parameters—their own eligibility
requirements, health care benefit packages for beneficiaries, and provider reimbursement
rates. Medicaid agencies must cover acute and long-term care services that include, but
are not limited to, inpatient and outpatient hospital services; laboratory and x-ray
services; and nursing home facilities and home health care.2 In addition, Medicaid
agencies may choose to cover optional services such as prescription drugs, durable
medical equipment, and personal care services.3

Medicaid Agencies’ Administrative Functions
Medicaid agencies perform a variety of functions, usually through the integration of
information technology (IT) or data systems, to support the administration of the
Medicaid program. Medicaid administrative functions include, but are not limited to:4
     enrolling eligible individuals,
     determining what benefits the Medicaid agency will cover,
     determining how much the Medicaid agency will pay for covered benefits and
       from whom it will purchase services (i.e., fee-for-service and managed care
       plans),
     having a system for processing claims from fee-for-service providers and making
       capitation payments to managed care plans,
     monitoring the quality of the services that the Medicaid agency purchases,
     ensuring that State and Federal health care funds are not spent improperly or
       fraudulently,
     collecting program information and reporting it to CMS, and
     resolving grievances from applicants, beneficiaries, providers, and health plans.


1
  Social Security Act (SSA) §§ 1901–1936, 42 U.S.C. §§ 1396–1396v. 

2
  42 CFR § 440.210.

3
  42 CFR § 440.220.

4
  See generally SSA § 1902(a), 42 U.S.C. § 1396a(a). 



Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
Page 3 – Marilyn Tavenner and Leon Rodriguez



Outsourcing of Medicaid Administrative Functions
Although Federal law requires that each State designate a single State agency to
administer the State’s Medicaid program, Medicaid agencies have the authority to
delegate or outsource their administrative functions to other State agencies and/or
contractors.5, 6 Medicaid agencies may outsource by entering into agreements with
contractors to perform specific administrative functions on a periodic or routine basis.
These contractors may be private companies identified as covered entities,7 business
associates,8, 9 or trading partners.10

Medicaid agencies may outsource directly, i.e., through contractors, or indirectly,
i.e., through subcontractors. Direct offshore outsourcing occurs when a Medicaid agency
contracts with an offshore contractor. Indirect offshore outsourcing occurs when a
Medicaid agency’s contractor subcontracts to an offshore contractor. In a 2006 report on
45 State Medicaid agencies, the Government Accountability Office (GAO) found that at
least one Medicaid agency directly outsourced offshore and at least one Medicaid agency
indirectly outsourced offshore. GAO stated that such reporting may be understated
because many Federal contractors and agencies did not know whether their domestic
vendors transferred personal health information to other locations or vendors.11
Moreover, the GAO report did not assess States’ compliance with existing HIPAA
regulations.




5
  SSA § 1902(a)(5), 42 U.S.C. § 1396a(a)(5).
6
  42 CFR § 431.10.
7
  Covered entities are health plans, clearinghouses, and providers that electronically transmit PHI.
Examples of PHI include a beneficiary’s name, Medicaid number, billing transactions, and date of birth.
PHI can be transmitted in electronic, oral, or paper formats. The HIPAA Privacy Rule provides Federal
safeguards to maintain the privacy of PHI. Health plans, including Medicare and Medicaid, provide or pay
for the cost of health care. Clearinghouses process and convert health information from one format to
another. Health care providers include physicians and pharmacies that electronically submit PHI for
financial or administrative transactions, such as beneficiary claims. 45 CFR § 150.103.
8
  Business associates are persons or organizations that perform certain functions involving the use or
disclosure of PHI on behalf of a covered entity. Business associates are subject to the HIPAA Privacy
Rule. 45 CFR § 150.103.
9
  Covered entities and business associates must have BAAs. Covered entities are required to have BAAs
for “downstream” outsourcing—i.e., when the original outsourcing contract is followed by one or more
subcontracting arrangements. In such cases, BAAs must establish the conditions under which downstream
contractors may use and disclose PHI and must include the required privacy safeguards. 45 CFR
§§ 150.103 and 165.504(e).
10
   Trading partners are entities that transmit electronic health data to covered entities, business associates,
providers/suppliers, and software vendors, or that receive such data. Trading partners are subject to the
HIPAA Privacy Rule.
11
   GAO, Domestic and Offshore Outsourcing of Personal Information in Medicare, Medicaid, and
TRICARE, GAO-06-676, September 2006.


Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
Page 4 – Marilyn Tavenner and Leon Rodriguez


Federal Requirements for Offshore Outsourcing
There are no Federal regulations that prohibit the offshore outsourcing of Medicaid
administrative functions. CMS requires that Medicare contractors or subcontractors
obtain written approval prior to performing system functions12 offshore.13 Although there
are no similar requirements from CMS for Medicaid, CMS has issued guidance in
accordance with the Affordable Care Act (ACA) stating that Medicaid agencies are
permitted to provide payments to contractors operating offshore for tasks—including
administrative functions—that support the administration of the Medicaid program.14, 15

METHODOLOGY

We conducted an electronic survey of all 56 Medicaid agencies.16 In May 2013, we
asked these agencies (1) whether they had any policies, Executive Orders, State laws, or
contract requirements (collectively, “requirements”) that addressed the outsourcing of
administrative functions offshore17 and (2) whether they directly or indirectly outsourced
administrative functions offshore.

For Medicaid agencies with outsourcing requirements, we asked whether the
requirements included provisions specifically addressing PHI and whether the Medicaid
agencies monitor contractors’ compliance with the outsourcing requirements. We
requested their requirements and BAAs, and we reviewed the requirements to identify the
type or form of the requirement. For the Medicaid agencies that outsource administrative
functions offshore, we asked what types of administrative functions are outsourced
offshore. In June 2013, we conducted telephone interviews, as needed, with selected
Medicaid agencies to clarify survey responses, and in some cases, we clarified
inconsistent survey responses via email.

This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.



12
   Medicare system functions include, but are not limited to, the transmission of electronic claims, receipt
of remittance advice, or any system access to obtain beneficiary PHI and/or eligibility information.
13
   Medicare Fee For Service Standard Companion Guide, page 18. Accessed at
http://www.medicarenhic.com/edi/download/J14%20PART%20B%20Medicare%20FFS%205010A1%20C
ompanion%20Guide.pdf on May 25, 2012. Appendix A, CMSR High Impact Level Data, Section SA-9.
Accessed at http://www.cms.gov/informationsecurity/downloads/ARS_App_A-CMSR_HIGH.pdf on
May 25, 2012.
14
   ACA, P.L. No. 111-148, § 6505.
15
   Although Medicaid agencies cannot pay for health care benefits or services to any entity located offshore
or provided by offshore providers, payments for administrative functions are permitted. CMS, State
Medicaid Directors Letter #10-026, December 2010.
16
   Medicaid agencies include those in the District of Columbia, the Commonwealth of Puerto Rico, the
United States Virgin Islands, Guam, American Samoa, and the Commonwealth of the Northern Mariana
Islands.
17
   We sent letters to each State Medicaid Director requesting contact information for the person or persons
knowledgeable about whether the agency outsources administrative functions offshore. We then sent the
survey to those contacts. In some cases, State Medicaid Directors identified themselves as the appropriate
contact.


Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
Page 5 – Marilyn Tavenner and Leon Rodriguez


RESULTS

Fifteen Medicaid agencies have requirements addressing the offshore outsourcing of
administrative functions
Only one-quarter (15 of 56) of Medicaid agencies reported having some form of
requirement addressing the offshore outsourcing of Medicaid administrative functions.
Of those 15 Medicaid agencies, 11 have requirements that allow such offshore
outsourcing. Nine of the eleven Medicaid agencies have requirements that allow offshore
outsourcing with very few restrictions, and 2 of the 11 have requirements that allow
offshore outsourcing only under limited circumstances. The remaining 4 of the
15 Medicaid agencies have requirements that prohibit the offshore outsourcing of
administrative functions. None of the 41 States without such requirements reported
outsourcing Medicaid administrative functions offshore.

Nine Medicaid agencies have requirements allowing offshore outsourcing with very few
limitations. Among the nine Medicaid agencies that allow offshore outsourcing with
very few limitations, three agencies addressed offshore outsourcing through Executive
Orders, State laws, or a Medicaid agency policy manual. The remaining six Medicaid
agencies addressed offshore outsourcing through contract provisions. All nine Medicaid
agencies allow indirect offshore outsourcing—i.e., they allow their direct contractors to
have offshore subcontractors. Two of these Medicaid agencies also allow direct offshore
outsourcing, in which the Medicaid agency contracts with offshore contractors for
administrative functions. Two other Medicaid agencies allow indirect offshore
outsourcing, but specifically prohibit direct offshore outsourcing. (Table 1 shows details
on the nine agencies that allow offshore outsourcing with very few limitations.)

According to the requirements that these nine Medicaid agencies have in place, the
agencies must approve any contractor requests to outsource administrative functions
offshore. Among the nine Medicaid agencies, views and practices regarding offshore
outsourcing varied—some reported that they outsource offshore on a case-by-case basis,
some reported giving preference to domestic contractors, and some reported that they
generally do not view the offshore outsourcing of administrative functions any differently
than they view domestic outsourcing.




Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
Page 6 – Marilyn Tavenner and Leon Rodriguez

Table 1: Description of Nine Medicaid Agencies’ Requirements Allowing Offshore
Outsourcing of Administrative Functions with Very Few Restrictions

                                                           Description                         Does the
                           Form of      Description of
                                                                 of the      Does the     State monitor
 State Medicaid                 18    the requirement
                     requirement                          requirement     requirement        contractor
 agency                                      for direct
                                                           for indirect    specifically     compliance
                                              offshore
                                                              offshore        address           with the
                                          outsourcing
                                                          outsourcing             PHI?    requirement?


 Florida                State law19    No requirement           Allows              No              Yes


                           Contract
 Massachusetts           provisions    No requirement           Allows              No              Yes


                           Contract
 Mississippi             provisions    No requirement           Allows              No              Yes


                           Contract
 Montana                 provisions           Prohibits         Allows              No              Yes


                           Contract
 New Mexico              provisions           Prohibits         Allows              No              Yes


                           Contract
 North Dakota            provisions    No requirement           Allows              No              Yes


                         Executive
                                 20
 Pennsylvania              Order                Allows          Allows              No              Yes


                           Contract
 Rhode Island            provisions    No requirement           Allows              No              Yes


                    Medicaid Policy
 Tennessee                 Manual               Allows          Allows              No              Yes




The nine Medicaid agencies did not have offshore outsourcing requirements that
specifically addressed the safeguarding of PHI. Instead, these nine Medicaid agencies
require contractors and subcontractors to have BAAs complying with HIPAA
requirements for the protection of PHI. HIPAA requires that BAAs specify the
contractor’s responsibilities for safeguarding PHI, the circumstances under which PHI

18
   In their contract provisions, Medicaid agencies may reiterate and/or expand on the requirements they
have already specified elsewhere (e.g., in Executive Orders, State law, and Medicaid policy manuals).
19
   The Medicaid agency allows indirect offshore outsourcing for managed care organizations and prepaid
health plans; however, certain statutory and/or contractual restrictions exist. For example, contract
provisions may require that some administrative functions be performed in a domestic location.
20
   Contractors must identify during the procurement process whether they or any subcontractor will perform
administrative functions offshore. During the selection of contractors, the State may give additional
consideration to contractors that will perform services within the United States.


Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
Page 7 – Marilyn Tavenner and Leon Rodriguez


may be used and disclosed, and the requirements for reporting PHI violations or
breaches. However, for all nine agencies, BAAs did not specifically address the offshore
outsourcing of administrative functions involving PHI. If Medicaid agencies engage in
offshore outsourcing of administrative functions that involve PHI, it could present
potential vulnerabilities. For example, Medicaid agencies or domestic contractors who
send PHI offshore may have limited means of enforcing provisions of BAAs that are
intended to safeguard PHI. Although some countries may have privacy protections
greater than those in the United States, other countries may have limited or no privacy
protections to support HIPAA compliance.

All nine Medicaid agencies reported that they monitored contractors to ensure
compliance with the agencies’ requirements on offshore outsourcing. Although some of
these Medicaid agencies reported that they directly monitor subcontractors, other
Medicaid agencies reported that they rely on contractors to monitor subcontractors.
Examples of monitoring activities reported by the nine Medicaid agencies included
approving contractors’ requests to subcontract; conducting ongoing reviews of
contractors’ and/or subcontractors’ policies and procedures; and requiring performance
reports from contractors. These activities may vary based on the scope of the contract.

Two Medicaid agencies have requirements allowing offshore outsourcing only under
limited circumstances. Two Medicaid agencies addressed offshore outsourcing through
an Executive Order or a State law. As shown in Table 2, both of these Medicaid agencies
allow offshore outsourcing directly and indirectly.




Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
Page 8 – Marilyn Tavenner and Leon Rodriguez

Table 2: Description of Two Medicaid Agencies’ Requirements Allowing Offshore
Outsourcing of Administrative Functions Only Under Limited Circumstances
                                      Description
                                                          Description        Examples of          Does the          Does the
                                            of the
 State                 Form of                                  of the    circumstances        requirement     State monitor
                                     requirement
 Medicaid                    21                          requirement         under which        specifically      contractor
                 requirement            for direct
 agency                                                   for indirect          offshore           address       compliance
                                         offshore
                                                             offshore     outsourcing is               PHI?          with the
                                     outsourcing
                                                         outsourcing             allowed                       requirement?

                                                                              Contractor or
                                                                             subcontractor
                                                                         must meet one of
                                                                           four conditions,
                                                                         such as providing
                                                                          a unique service
                                                                         that is mandatory
                                                                            for the State to
                       Executive                                                  purchase
 Missouri                Order22            Allows              Allows                                   No              Yes



                                                                           The function or
                                                                         service cannot be
                                                                               provided by
 New                                                                              domestic
 Jersey                State law            Allows              Allows        contractor or              No              Yes
                                                                             subcontractor

Source: OIG analysis of State survey responses and regulations, 2013.


One Medicaid agency reported that State agencies must award contracts to domestic
contractors unless certain circumstances exist—for example, the contractor or
subcontractor provides a unique service that is mandatory for the State agency to
purchase. The second Medicaid agency reported that all contracts awarded by the State
must be performed domestically except when the contracted services cannot be provided
within the United States. In such cases, the contractor and subcontractor must specify
why these services cannot be performed domestically. Both Medicaid agencies reported
that they must approve offshore outsourcing contracts. For more information about the
two Medicaid agencies’ regulations, see the Appendix.

Similar to the nine Medicaid agencies that allow offshore outsourcing with very few
limitations, these two Medicaid agencies do not have requirements that specifically
address PHI. However, these two Medicaid agencies include requirements to protect PHI
in BAAs with all contractors and subcontractors. In both States, the Medicaid agency
contractors must also have BAAs with their respective subcontractors that include similar
requirements for protecting PHI.

Both Medicaid agencies reported monitoring contractors and subcontractors. For
example, one of the Medicaid agencies reported that all contract requirements are
monitored for compliance by the contract administrator and by the State agency
responsible for oversight of State contracts.
21
   As noted in Footnote 18, Medicaid agencies may use contract provisions to reiterate and/or expand on

requirements they have already specified elsewhere. 

22
   Contractors must disclose the location where all services are performed. 



Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
Page 9 – Marilyn Tavenner and Leon Rodriguez


Four Medicaid agencies have requirements prohibiting offshore outsourcing. Of the four
Medicaid agencies with requirements prohibiting the offshore outsourcing of
administrative functions, three rely on Executive Orders that prohibit such outsourcing
and one relies on contract provisions that prohibit it. All four Medicaid agencies reported
monitoring contractors and subcontractors to ensure compliance with the agencies’
regulations. For example, contractors and subcontractors sign attestations of compliance
with the Medicaid policies, disclose the location where all work is performed, and/or
provide the primary place of business for the contractor or any subcontractor.

Seven Medicaid agencies reported currently outsourcing Medicaid administrative
functions offshore
Seven of the fifty-six Medicaid agencies reported that they currently outsource
administrative functions offshore; all seven of these have requirements allowing offshore
outsourcing. As shown in Table 3, all seven Medicaid agencies indirectly outsource
offshore, and one of the seven also directly outsources offshore.

 Table 3: Description of the Seven Medicaid Agencies’ Practices for Outsourcing 

 Administrative Functions Offshore 


                                                                        Examples of
 State Medicaid                Form of requirement          administrative functions       Type(s) of offshore
 agency                                                        outsourced offshore               outsourcing


 Florida                                     State law                               IT                 Indirect



 Massachusetts                    Contract provisions                                IT                 Indirect


                                                                    No specific types or
 Mississippi                      Contract provisions                         examples                  Indirect


                                                                    No specific types or
 Missouri                             Executive Order                         examples       Direct and indirect


                                                                    No specific types or
 Montana                          Contract provisions                         examples                  Indirect


 North Dakota                     Contract provisions                                IT                 Indirect


 Rhode Island                     Contract provisions                                IT                 Indirect

Source: OIG analysis of State survey responses and regulations, 2013.


Four of the seven Medicaid agencies reported that the most common type of
administrative function that is outsourced offshore relates to IT. For example, a
Medicaid contractor in one State reported that it outsourced the Medicaid Management
Information System (MMIS) implementation projects to offshore programmers and




Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
Page 10 – Marilyn Tavenner and Leon Rodriguez


software developers.23 In another State, a domestic contractor used offshore
subcontractors to help develop and design a new claims processing system for the
Medicaid agency. In this instance, the offshore subcontractor designed programming and
systems testing for this new system. The remaining three Medicaid agencies did not
report any common type of administrative functions that are outsourced offshore.

All seven Medicaid agencies reported that they do not outsource offshore any
administrative functions involving PHI. In fact, some of these seven Medicaid agencies
reported that for administrative functions involving PHI, they strongly prefer to outsource
only domestically. For example, one of the seven Medicaid agencies explicitly reported
denying all requests to send offshore any administrative functions involving PHI.

CONCLUSION

This memorandum report provides information about the current Medicaid environment
for outsourcing administrative functions offshore. As of June 2013, 15 of 56 Medicaid
agencies had some form of State-specific requirments that addressed offshore
outsourcing. The remaining 41 Medicaid agencies reported no offshore outsourcing
requirements and do not outsource administrative functions offshore. Among the
15 Medicaid agencies with requirements, 4 Medicaid agencies prohibit the outsourcing of
administrative functions offshore and 11 Medicaid agencies allow it. The 11 Medicaid
agencies that allow offshore outsourcing of administrative functions each maintain BAAs
with contractors, which is a requirement under HIPAA. Among other things, BAAs are
intended to safeguard PHI. These 11 Medicaid agencies do not have additional State
requirements that specifically address the safeguarding of PHI. Seven of the eleven
Medicaid agencies reported outsourcing offshore through subcontractors, but none
reported sending PHI offshore. If Medicaid agencies engage in offshore outsourcing of
administrative functions that involve PHI, it could present potential vulnerabilities. For
example, Medicaid agencies or domestic contractors who send PHI offshore may have
limited means of enforcing provisions of BAAs that are intended to safeguard PHI.
Although some countries may have privacy protections greater than those in the United
States, other countries may have limited or no privacy protections.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-09-12-00530 in all correspondence.




23
  MMIS is a claims processing and information retrieval system for Medicaid. All Medicaid agencies
operate an MMIS to support program administration and maintain information, such as provider enrollment
and claims processing. Medicaid agencies may use a contractor to operate their MMIS. 42 CFR pt. 433.



Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
Page 11 – Marilyn Tavenner and Leon Rodriguez


APPENDIX: STATE REQUIREMENTS FOR TWO MEDICAID AGENCIES
THAT ALLOW OFFSHORE OUTSOURCING OF ADMINISTRATIVE
FUNCTIONS UNDER LIMITED CIRCUMSTANCES

State of Missouri’s Executive Order




Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
Page 12 – Marilyn Tavenner and Leon Rodriguez


APPENDIX (continued)




Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
Page 13 – Marilyn Tavenner and Leon Rodriguez


APPENDIX (continued)

State of New Jersey’s State Law




Offshore Outsourcing of Medicaid Administrative Functions (OEI-09-12-00530)
